BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief on the Petitioner in 20-940, State
of Alaska v. Sean Wright, was sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
and e-mail service to the following parties listed below,
this 26th day of March, 2021:
Stuart Banner
UCLA School of Law Supreme Court Clinic
405 Hilgard Ave.
Los Angeles, CA 90095
(310) 206-8506
banner@law. ucla.ed u
Counsel for Respondent
Treg R. Taylor
Attorney General
Donald Soderstrom
Counsel of Record
Assistant Attorney General
Tamara Eve DeLucia
Solicitor General - Criminal Division
State of Alaska, Dept. of Law
Office of Criminal Appeals
1031 W. 4th Ave., Suite 200
Anchorage, Alaska 99501
(907) 269-6260
donald.soderstrom@alaska.gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~ J~

d0J- (

d~Vl - ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
f'."ebruary 14, ?.023

